  SBA'S PLANNING AND AWARD OF THE 

CUSTOMER RELATIONSHIP MANAGEMENT 

             CONTRACTS 





          Report Number: ROM 10-16 

          Date Issued: June 29, 2010 

             u.s. Small Business Administration
             Office of Inspector General
                                                    Memorandum
     To: 	   Darryl K. Hairston                                       Date:   June 29, 2010
             Associate Administrator for Management and
             Administration
             lSI original signed
  From: 	    Debra S. Ritt 

             Assistant Inspector General for Auditing 


Subject: 	   Audit of Small Business Administration's (SBA) Planning and Award of the
             Customer Relationship Management Contracts, ROM 10-16

             This report presents the results of our audit ofSBA's planning and award of the
             Customer Relationship Management (CRM) contracts funded under the American
             Recovery and Reinvestment Act of 2009 (Recovery Act). The purpose of the
             audit was to determine whether, in making the contract awards, SBA: (1) adopted
             an acquisition plan for the procurements that promoted competition and provided
             for measurable outcomes; (2) ensured contractors were qualified and that contracts
             contained required Recovery Act provisions; and (3) properly posted the
             solicitation and contract awards to meet transparency requirements of the
             Recovery Act.

             To accomplish the first objective, we reviewed Office of Management and Budget
             (OMB) guidance on the Recovery Act, pertinent Code of Federal Regulations
             (CFR), Federal Acquisition Regulations (FAR), SBA's Standard Operating
             Procedure (SOP) 00 11 IH, Annual Acquisition Strategy and Procurement
             Planning, and the CRM contract files. We also interviewed personnel from the
             Office of the Chief Information Officer (OCIO) and the Office of Business
             Operations. To address the second objective, we reviewed the CRM contract files
             to determine whether contracting personnel determined the contractors were
             qualified. We also reviewed the contracts to determine whether all contract­
             related Recovery Act requirements were included. To address the third objective,
             we reviewed the contract files and information from the Federal Business
             Opportunities (FedBizOpps) website - the Federal website for contract solicitation
             and award postings - to determine whether the awards were properly publicized.
             We conducted our audit between June 2009 and March 2010 in accordance with
             Government Auditing Standards prescribed by the Comptroller General of the
             United States.
                                                                                                                 2


BACKGROUND
SBA received $20 million in Recovery Act funds for improving, streamlining, and
automating information technology systems related to lender processes and
oversight. SBA used $4.3 million of the $20 million to fund the CRM initiative to
create a centralized system for customer contact data. This system is designed to
improve the interaction between SBA's employees and its customers. SBA's
OCIO, which is the sponsoring program office, planned to implement the CRM
initiative in three phases: (1) software licenses and maintenance; (2) integration
support; and (3) hardware. SBA also planned to award separate contracts for each
phase, two of which have been awarded. On June 16,2009, SBA awarded a firm­
fixed-price contract to Copper River Information Technology, LLC (Copper
River) for $1.8 million to procure Microsoft Dynamics software licenses. l The
second contract was awarded to DRT Strategies, Inc. (DRT) on August 6,2009, as
an Indefinite-Delivery/Indefinite-Quantity contract for $3.5 million2 for
integration support. Both contracts were awarded on a sole-source basis under the
8(a) Business Development Program. 3

In February and April 2009, the Office of Management and Budget (OMB) issued
guidance 4 for carrying out activities funded by the Recovery Act. The guidance
emphasized that agencies should use competitive procedures to the maximum
extent possible and structure acquisitions to deliver meaningful and measurable
outcomes.

RESULTS
While SBA requires acquisition plans for all procurements to be approved prior to
award, the CRM contracts were awarded without an approved acquisition plan.
In our opinion, the contract awards appeared to be pushed through the Agency,
without obtaining the proper signatures and clearance for the acquisition plan.
SBA's acquisition strategy for the procurement also did not promote competition
because SBA chose to issue the contracts on a sole-source basis under the 8(a)
program. While the 8(a) business development program is authorized by law to
use sole-source contracting under certain circumstances, the Copper River contract
did not appear to qualify for a small business set aside contract or an 8(a) award
because it was basically a "pass through" contract to purchase Microsoft software
and licenses. The former contracting officer advised that he sent the CRM license

1  The contract also provided for software assurance. 

2  The DRT contract consists of $2.5 million in Recovery Act funds and $1 million in Agency mission funds. 

3 The SBA 8(a) Business Development Program was created to assist eligible small disadvantaged business concerns 

    compete in the American economy through business development.
4 	 OMB Memoranda, Initial Implementing Guidance for the American Recovery and Reinvestment Act of2009,
    February 18, 2009, and Updated Implementing Guidance for the American Recovery and Reinvestment Act of2009,
   April 3, 2009.
                                                                                                                    3


contract to SBA's Office of General Counsel (OGC) for legal review prior to
award. However, the contract was awarded without legal clearance. Had the
Agency waited for legal clearance, OGC may have determined that the contract
was not suitable for Sea) procurement because it did not meet small business rules.
By awarding the non-competitive Copper River contract, SBA did not comport
with OMB' s guidance that contract awards be competed to the maximum extent
possible.

Further, SBA incorporated the required Recovery Act clauses in both contracts
and ensured the contractors were not on the excluded party list. However, SBA
did not establish measurable outcomes for the project. Lastly, because the
procurement for CRM licenses was awarded non-competitively, the contracting
officer did not publicize the procurement.

The CRM Contracts Were Awarded Prior to the Approval of an
Acquisition Plan

We determined that the contracting officer inappropriately awarded the contract
for the purchase of CRM licenses to Copper River on June 16, 2009, and for
integration support to DRT on August, 6, 2009, prior to obtaining an approved
acquisition plan for the CRM initiative. FAR Part 7, Acquisition Plans, Subpart
103 (FAR 7.103) states that Agency Heads shall prescribe procedures for
reviewing and approving acquisition plans and revisions to those plans.
According to SOP 00 11 lH, Annual Acquisition and Procurement Planning, no
procurement action shall be taken prior to the approval of the planned acquisition
by the Associate Deputy Administrator (ADA) for Management and
Administration (M&A). The title of this position was subsequently changed to the
Associate Administrator (AA) for M&A.

Although SBA developed an acquisition plan for the CRM initiative, it was not
approved by all of the required parties. Acquisitions exceeding $500,000 must be
approved by the AA for M&A and nine additional key SBA officials identified in
SOP 00 11 lH.5 However, in planning for the CRM initiative, only 4 of the
required 10 officials approved the acquisition plan. The contract file contained no
evidence that the remaining six SBA officials-namely, the AA for M&A, Senior
Procurement Executive, Chief Information Officer, Head of Contracting Office,
Contract Specialist, and Acquisition Planner (OCIO)-approved the acquisition
plan. The acquisition plan also did not receive concurrence from the Competition
Advocate or OGC, as prescribed by the SOP. Because the CRM acquisition plan


5   Acquisitions of $500,000 and above require comprehensive acquisition plan approval by the: Planner, Program Office
    Official, Contract Specialist, Contracting Officer, Procurement Center Representative, Head of Contracting Office,
    Senior Procurement Executive, Chief Information Officer, Small Business Specialist, and ADAIM&A.
                                                                                                                        4


was not approved by the appropriate personnel, the contracting officer should not
have awarded the contracts to Copper River and DRT.

It appeared that the contract awards were made without an approved acquisition
plan because they were processed in an expedited manner that did not include all
required reviews. This is evidenced by the Agency not following normal
clearance procedures, including obtaining a legal review by OGC. The former
contracting officer who awarded the contracts also told us that he was under
extreme pressure from senior SBA officials to quickly make the awards to Copper
River and DRT.

SBA's Acquisition Approach Did Not Promote Competition

OMB guidance for carrying out activities funded by the Recovery Act emphasizes
that agencies should use competitive procedures to the maximum extent possible
for acquisitions made with Recovery Act funds. However, instead of competing
the awards for the purchase of CRM licenses and integration support, SBA non­
competitively awarded the contracts to Copper River and DRT-both 8(a) firms.
Under the rules of the 8(a) program, the FAR allows procurements under
$3.5 million to be non-competitively awarded without soliciting a request for
proposal on FedBizOpps, which significantly decreases procurement time. While
this approach helped the Agency to expedite the contract awards, the Copper River
award did not qualify for a sole-source award, as discussed below. As a result,
this contract neither comported with OMB guidance for competitive awards, nor
as an award to a small business. Additionally, as reported in April 20 10, SBA did
not report the DRT contract to Recovery.Gov, as required by the Office of
Management and Budget. 6

The Requirement Did Not Qualify for a Small Business or 8(a) Contract

OMB guidance promotes the use of small businesses for procurements made with
Recovery Act funds. While SBA pursued small businesses for the CRM initiative
by selecting 8(a) firms, the contract award to Copper River did not comply with
small business rules under the CFR. Under 13 CFR, the CRM acquisition was
subject to two possible scenarios: ostensible subcontracting and the non­
manufacturer rule. 7 Each scenario disqualified the acquisition of CRM licenses
for 8(a) procurement.


6OIG Report ROM 10-14, Memorandum on the Accuracy ofRecovery Act Contract Obligations Reported to the
 Federal Procurement Database System-Next Generation and Recovery.gov.
7According to FAR 19.001, "Non-manufacturer rule" means that a contractor under a small business set-aside or 8(a)
 contract shall be a small business under the applicable size standard and shall provide either its own product or that of
 another domestic small business manufacturing or processing concern (see 13 CFR 121.406).
                                                                                                                        5


Ostensible Subcontracting

An ostensible subcontractor is a subcontractor that performs primary and vital
requirements of a contract upon which the prime contractor is unusually reliant.
Copper River subcontracted with Dell and Microsoft when obtaining the CRM
licenses. According to the AA for M&A, because Copper River did not have the
necessary business relationship with Microsoft to purchase the CRM licenses, it
used its relationship with Dell to obtain the CRM licenses for the contract at issue.
Likewise, SBA executed key documents directly with Microsoft, without Copper
River's involvement, in order to acquire the CRM licenses. Copper River was,
therefore, unusually reliant upon both Dell and Microsoft in order to obtain the
CRM licenses. Ultimately, Copper River did little, if any, discernable value-added
work for this procurement. Both Dell and Microsoft are large businesses, which
increased the size of Copper River through an implied joint venture. 8 SBA
regulations treat a contractor and its ostensible subcontractor as a joint venture for
size determination purposes. The acquisition team should have recognized that the
implied joint venture exceeded the size standard for an 8(a) acquisition, and
should have disqualified the acquisition from consideration as an eligible 8( a)
procurement of CRM licenses.

Non-Manufacturer Rule

The contracting officer assigned NAICS code 423430, Computer and Computer
Peripheral Equipment and Software Merchant Wholesalers, to the procurement,
which classified the contract as a product procurement. Therefore, the
procurement was subject to the non-manufacturer rule. According to CFR, Title
13, Part 121, Subsection 406, Size Eligibility Requirements for Government
Procurement [13 CFR121.406], to qualify as a small business concern for an 8(a)
contract, a small business must either be: (1) the manufacturer of the item being
purchased, to include modification of an item which the small business increased
the value of the end item by 50 percent or more; or (2) a non-manufacturer, which
normally sells the type of item being supplied, and the end item must be the
product of a small business, or the contracting officer must obtain a waiver from
the SBA Administrator. Insofar as Copper River was not the manufacturer and did
not significantly modify the CRM software, it was not considered to be the
manufacturer. Further, because Copper River did not regularly sell Microsoft
CRM software and the end item was the product of a large business, Copper River

8According to FAR 19. 101(7)(ii), a joint venture involves acquisition and property sale assistance. Concerns bidding
 on a particular acquisition or property sale as joint ventures are considered as affiliated and controlling or having the
 power to control each other with regard to perfoI1llance ofthe contract. Moreover, an ostensible subcontractor, which
 is to perfoI1ll primary or vital requirements of a contract, may have a controlling role such to be considered a joint
 venture affiliated on the contract with the prime contractor. A joint venture affiliate finding is limited to particular
 contracts, unless the SBA size deteI1llination fmds general affiliation between the parties. The rules governing 8(a)
 Program joint ventures are described in 13 CFR 124.513.
                                                                                                       6


also did not qualify as a non-manufacturer. Finally, the contracting officer did not
obtain a waiver of the non-manufacture rule from the Administrator in order for
Copper River to obtain Microsoft CRM licenses as required by 13 CFR121.406.

In addition, the acquisition team should have recognized that neither a small
businesses nor an 8(a) set aside contract should be used as a "pass through"
contract to procure products from a large business. However, a small business or
an 8(a) contractor may be used when it makes meaningful changes or revisions to
the product of a large business, which adds demonstrable value to the end product.
SBA's SOP regarding procurements is out of date 9 and does not provide guidance
on the proper and improper uses of small business set asides and sole-source 8( a)
awards. Therefore, SBA should update the SOP to clarify the proper use of small
business and set aside contracts.

According to FAR 1.602-1 (b), no contract may be entered into unless the
contracting officer ensures that all requirements of law, executive orders,
regulations, and all other applicable procedures, including clearances and
approvals, are met. Further, SOP 00 11 lH states that before award, proposed
contracts shall be forwarded to OGC for legal review. However, the Agency
awarded the CRM license contract without the proper legal review. Although the
contracting officer told us he submitted the contract to OGC for review before the
award was made, the contract file does not indicate that OGC reviewed or
approved this procurement. Had the CRM license contract been reviewed by
SBA's OGC, the Agency may have determined that the contract was not suitable
for 8( a) procurement. Furthermore, the AA for M&A stated that the contract was
clearly ineligible for a small business procurement; and had it been brought to his
attention, he would not have approved the contract award.

Finally, although the procurement did not qualify for an 8(a) award, SBA reported
it as an award to a small business in order to reach or exceed its annual small
business procurement goals. We believe that such actions damage the integrity of
SBA and its programs. As the Federal government's small business advocate,
SBA should discourage misuse of the 8(a) program and promote its integrity.
However, by not following the program requirements, it sends the opposite
message.

SBA Met Other Recovery Act Requirements, But Did Not Establish
Measurable Outcomes to Ensure CRM Objectives Were Met

OMB's April 2009 guidance requires that agencies include special terms and
conditions, beyond standard practice, in contracts made with Recovery Act funds,

9   SBA SOP 0011 1, Small Purchases, Contracts, Grants, and Cooperative agreements, October 25,1985.
                                                                                  7


and that awards be made to qualified contractors. We determined that the contract
award for the CRM licenses included the required contract provisions and that
steps were taken to ensure the selected contractor was not on the excluded party
list.

Further, OMB' s guidance stresses that agencies should structure acquisitions to
result in meaningful and measurable outcomes that are consistent with agency
plans and goals of the Recovery Act. The evaluation criteria for award should also
include those that bear on the measurement and likelihood of achieving the
outcomes.

Although SBA developed acquisition objectives for the CRM initiative, they were
not measurable. Neither the project documents nor the contract files discussed
measurable outcomes. There was evidence of standard measures related to
information technology purchases from information prepared by the program
office. However, the program office did not address the measurable outcomes for
the CRM initiative. For example, both the project and acquisition plans merely
stated that the CRM project will:

       • 	 improve efficiencies of lenders and business outreach and market team
           stimulus activity;

       • 	 provide the foundation for future long-term customer relationship
           process reengineering and improvement initiatives;

       • 	 enhance field operations' productivity; and

       • 	 improve customer experience by centralizing customer contact data,
           facilitating consistent service delivery, and organizing customer
           communications across the SBA.

Beyond these general objective statements, the plans did not discuss how the
attainment of these objectives would be measured. Lack of measurable outcomes
may lead to subjectivity in assessment of program effectiveness and inadequate
expenditure of funds.

Solicitation and Transparency Requirements of the Recovery Act
The contracting officer did not post the solicitations for CRM software licenses or
integration support on FedBizOpps until both contracts were awarded to Copper
River and DRT. According to FAR Part 5 .202(a)( 4), a contracting officer is not
required to post a solicitation on FedBizOpps for an Sea) sole-source contract.
Therefore, the contracting officer acted in accordance with the FAR in not
                                                                                     8


publicizing the DRT solicitation prior to award. However, because the CRM
software license procurement did not qualify as an 8(a) procurement, the
contracting officer should have publicized the solicitation on FedBizOpps for the
contract awarded to Copper River as required by the Recovery Act, or selected a
minimum of three vendors from a federal supply schedule to promote competition.

RECOMMENDATIONS

We recommend that the AA for M&A:

   1. 	 Take steps to ensure that no procurement action is taken prior to the 

      approval of an acquisition plan by the AA for M&A. 


   2. 	 Provide training to SBA contracting officers regarding the CFR, Title 13,
        Part 121, Small Business Size Regulations, with regard to ostensible
        subcontracting and non-manufacturer rules.

   3. 	 Exclude the CRM contract awarded to Copper River from SBA calculations
        used to determine the number of 8(a) program contracts and small business
        contracts for fiscal year 2009.

   4. 	 Formalize the contract approval process by establishing a business
        clearance form to ensure that all procurements undergo a review by the
        OGC and all required parties prior to award.

   5. 	 Work with the OCIO to establish measurable outcomes for the CRM
        initiative and identify the likelihood that a contractor could meet
        measurable outcomes in contract evaluation criteria for any future contracts
        under this initiative.

   6. 	 Revise Agency procedures to clarify that small business and 8(a) set aside
        contracts cannot be used as "pass through" contracts to purchase products
        from large businesses unless the small business or 8(a) contractor makes
        changes or revisions to the product which add demonstrable value.
                                                                                    9


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

On May 12,2010, we provided a draft of this report to SBA's Office of
Management and Administration for comment. On June 14, 2010, SBA submitted
its formal comments, which are contained in their entirety in Appendix I.
Management agreed with recommendations 1,2, and 5; partially agreed with
recommendation 4; and neither agreed nor disagreed with recommendations
3 and 6. The Agency's comments and our evaluation of them are summarized
below.

Management Comments

Comment 1

Management stated that they disagreed with several of the comments and
conclusions made within this report regarding the use of sole-source contracting
through the 8(a) program. Specifically, management disagreed with our statement
that SBA's acquisition approach did not promote competition as required by the
Recovery Act and OMB guidance. Management stated that the Recovery Act did
not limit procuring agencies from using sole-source 8(a) contracts. According to
management, the issue is whether or not the contract awarded to Copper River
qualifies as a small business set aside or an 8(a) award.

DIG Response

We agree with management's comment that Recovery Act and OMB guidance
does not limit the use of sole-source contracting through the 8(a) program.
However, the procurement of Microsoft Dynamics CRM licenses did not qualify
for a small business or 8(a) contract. OMB, Updated Implementation Guidance
for the American Recovery and Reinvestment Act of2009, dated April 3, 2009,
states that contracts using Recovery Act funds shall be awarded as fixed-price
contracts using competitive procedures to the maximum extent practicable. This
guidance recognizes that small businesses playa critical role in stimulating
economic growth and creating jobs, and that qualified 8(a) procurements can be
noncompetitively awarded up to the $3.5 million threshold under FAR 19.805.
However, procurements above the noncompetitive threshold and those which do
not qualify for 8(a) procurement should use competitive procedures to ensure fair
market prices.
                                                                               10


Recommendation 1

Management Comments

Management agreed with the recommendation and stated that it will review and
revise Agency guidance as deemed appropriate.

DIG Response

Management comments were responsive to our recommendation. We concur with
SBA's decision to review, and as appropriate, revise Agency guidance.

Recommendation 2

Management Comments

Management agreed with the recommendation and stated that it would provide
training to contracting officers.

DIG Response

Management comments were responsive to our recommendation.

Recommendation 3

Management Comments

Management did not state whether it agreed or disagreed with the
recommendation. However, management stated that the Division of Procurement
and Grants Management and OGC would conduct an independent review of the
CRM contract and take appropriate action based on the review results.

DIG Response

We consider management comments to be responsive to our recommendation.

Recommendation 4

Management Comments

Management partially agreed with the recommendation. Management stated that a
business clearance form already exists; however, this form does not stipulate
requirements for review by OGC. Management also stated that it will take steps to
                                                                                   11


revise the business clearance form to identify the contract actions it believes
should undergo legal review prior to award.

DIG Response

Management comments were responsive to the recommendation.

Recommendation 5

Management Comments

Management agreed with this recommendation. Management stated that the CRM
project was initiated as a pilot with the intent of demonstrating the flexibilities of
the tool and its potential long-term benefits. According to management, lessons
learned from the CRM initiative will enable the Agency to establish clear and
attainable outcomes for future CRM projects.

DIG Response

Management comments were responsive to the recommendation.

Recommendation 6

Management Comments

Management did not state whether they agreed or disagreed with the
recommendation. Instead, management stated that the rules governing
performance requirements applicable to set-aside contracts are set forth in existing
regulations. Management also stated that training completed in response to
Recommendation 2 would satisfy this recommendation.

DIG Response

Management comments were partially responsive. We concur with management's
decision to provide training to the contracting officers in response to
Recommendation 2. However, the effectiveness of this training will be limited by
SBA's outdated guidance. Standard Operating Procedure (SOP) 00 11 1 was
issued in October 1985 and does not reflect current regulations. In meetings with
the audit team, both the AA for M&A and the Acting Director for the Office of
Business Operations acknowledged that contracting personnel were not familiar
with this guidance because it was out of date and not relevant. Therefore,
SOP 00 11 1 must be revised to reinforce existing CFR and FAR requirements on
8(a) set-aside contracts and prohibit 8(a) set-aside contracts from being used as
                                                                                       12


"pass through" contracts to purchase products from large businesses unless the
small business or 8( a) contractor makes changes to the product that add
demonstrable value.


ACTIONS REQUIRED

Please provide your management decision for each recommendation on the
attached SBA Forms 1824, Recommendation Action Sheet, within 30 days from
the date of this report. Your decision should identify the specific action( s) taken
or planned for each recommendation and the target date( s) for completion.

We appreciate the courtesies and cooperation of the Small Business
Administration during this review. If you have any questions concerning this
report, please call me at (202) 205_[FOIAeX2br Riccardo R. Buglisi, Director, Business
Development Programs Group at (202) 205- [FOIAex.2]
        APPENDIX I. AGENCY COMMENTS                                                      13


              u.S. Small Business Administration 

                    Washington, D.C. 20416 




DATE: 	                June 14,2010


TO: 	                  Debra S. Ritt
                               Assistant Inspector General for Auditing
                       lSI original signed
FROM:                  Darryl K. Hairston
                               Associate Administrator
                               Office of Management and Administration

SUBJECT: 	     Draft Report on the Small Business Administration's (SBA) Planning and
               Award of the Customer Relationship Management Contracts, Project No.
               9516

Thank you for providing the opportunity to comment on this draft report.

Based on our review, there are several comments and conclusions regarding the use of
sole source contracting through the 8(a) Business Development (BD) program with
which we do not agree. With respect to your statement that SBA's acquisition approach
did not promote competition as required by the Recovery Act and Office of Management
and Budget (OMB) guidance, the Recovery Act did not limit procuring agencies' ability
to use all available small business contracting programs, including sole source
contracting through the 8(a) BD program. Pub. L. No. 111-5, Title XVI, Section 1610(a),
123 Stat. 115, 304; OMB Memorandum, Initial Implementing Guidance for the American
Recovery and Reinvestment Act of2009, February 18, 2009, p. 40; OMB Memorandum,
Updated Implementing Guidance for the American Recovery and Reinvestment Act of
2009, April 3, 2009, pp. 54-55. In our view, the sole issue in this matter is whether or not
this particular contract was suitable for award through the 8(a) BD program.

Following are the Agency's responses to the IG's recommendations:

Recommendation # 1 - Take steps to ensure that no procurement action is taken
prior to the approval of an acquisition plan by the AA for M & A.

We agree with this recommendation and will take the necessary steps to address the noted
concern. Such steps will include a review and, as deemed appropriate, a revision of
current Agency guidelines.

Recommendation # 2 - Provide Training to SBA contracting officers regarding the
CFR, Title 13, Part 121, Small Business Size Regulations, with regard to ostensible
subcontracting and non-manufacturer rules.
                                                                                            14



We agree with this recommendation and will provide contracting officers training
regarding this subject as well as other relevant small business program issues.

Recommendation # 3 - Exclude the CRM contract awarded to Copper River from
SBA calculations used to determine the number of 8(a) program contracts and small
business contracts for fiscal year 2009.

The Division of Procurement and Grants Management, along with the Office of General
Counsel, will conduct an independent review of this contract. Based on the outcome of
this review, appropriate action will be taken regarding the recording of this contract and
its associated value.

Recommendation # 4 - Formalize the contract approval process by establishing a
business clearance form to ensure that all procurements undergo a review by the
OGC and all required parties prior to award.

We partially agree with this recommendation. While the referenced business clearance
form currently exists, it does not stipulate requirements for review by the Office of
General Counsel. We will take steps to revise this form to identify those contract actions
that must undergo legal review before award.

Recommendation # 5 - Work with the OCIO to establish measurable outcomes for
the CRM initiative and identify the likelihood that a contractor could meet
measurable outcomes in contract evaluation criteria for any future contracts under
this initiative.

We agree with this recommendation. This project was initiated as a pilot with the
primary intent of demonstrating the flexibilities of the tool and its potential long-term
benefits. Lessons learned from the initial endeavor will enable the Agency to establish
clear and attainable outcomes for future CRM related projects.

Recommendation # 6 - Revise Agency procedures to clarify that a small business
and 8(a) set-aside contracts cannot be used as "pass through" contracts to purchase
products from large business unless the small business or 8(a) contractor makes
changes or revisions to the product which add demonstrable value.

The rules governing the performance requirements applicable to set-aside contracts, as
well as the requirements of the non-manufacturer rule, are set forth in existing
regulations. 13 C.F.R. §§ 121.406, 125.6; Federal Acquisition Regulation § 52.219-14.
The completion of the training in response to Recommendation # 2 of the draft report will
serve to satisfy this concern.

Thank you again for your review.
